TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Initial Efforts to Develop a New Web-based
                   Portal Environment Were Not Successful



                                           May 19, 2009

                              Reference Number: 2009-20-079




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                May 19, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Initial Efforts to Develop a New Web-based
                                 Portal Environment Were Not Successful (Audit # 200820002)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts to
 establish a new web-based portal1 environment. The overall objective of this audit was to review
 IRS management and development of the new web-based portal environment. This review was
 included in the Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual
 Audit Plan under the major management challenge of Modernization of the IRS.

 Impact on the Taxpayer
 The use of the Internet is critically important to the IRS’ tax administration mission of delivering
 top-quality service to all taxpayers. The IRS uses Internet portals as the means to enable
 taxpayers and tax practitioners to submit and retrieve tax-related and general IRS information
 and electronically file tax returns. As a result, the portal environment is a critical interface
 between the public and the IRS. Although the initial attempt to develop a new portal
 environment terminated unsuccessfully, the IRS subsequently hired a contractor to assist in the
 development of an enterprise portal business strategy. The success of this effort is important in
 order to provide taxpayers with both continuous access to IRS data and information and the
 ability to electronically fulfill their tax responsibilities.

 Synopsis
 In Fiscal Year 2006, the IRS recognized the need to upgrade its existing portal environment and
 initiated the New Portal Implementation Project. A major concern that led to developing the new

 1
     See Appendix IV for a glossary of terms.
                  Initial Efforts to Develop a New Web-based Portal Environment
                                         Were Not Successful



portal environment was that a significant amount of portal equipment was nearing or was at the
end of its useful life expectancy. In addition, requirements from existing and planned projects
that needed portal support could not be met due to technical limitations of existing equipment.
The IRS planned to complete the new portal environment by November 2008; however, in
June 2008, the IRS Chief Information Officer cancelled the Project before it was completely
developed. Reasons for the cancellation included the lack of a comprehensive enterprise strategy
that considered industry best practices or advancements in portal technology, and budget
challenges due to the significant expenditure requirements necessary to replace existing
equipment. Subsequent to the Project being cancelled, the IRS hired a contractor to assist in
developing an enterprise portal business strategy.
The IRS planned to launch two new projects, the My IRS Account project and a new release of
the Modernized e-File project, in the new portal environment. However, because the New Portal
Implementation Project was cancelled, the IRS had to expend $9.7 million for new equipment
and upgrades to the existing portal capacity to operate projects dependent on the portals,
including the My IRS Account2 and Modernized e-File projects. In addition to extraneous
expenses, purchasing new equipment for portal capacity upgrades prior to development of an
enterprise portal business strategy increases the risk that new equipment may not integrate with
the new portal environment once it is developed.
The IRS uses the Modernization Vision and Strategy process to identify projects that need portal
support. However, during our prior audit work3 and through recent discussions with IRS portal
project personnel, we determined that the Modernization Vision and Strategy process has not yet
matured to the extent that it includes all information technology projects. The IRS uses various
methods to identify existing projects that require portal support, such as the Modernization
Vision and Strategy Plan and Unified Work Requests; however, there is no formal process to
continuously identify and evaluate future planned projects that may require portal support. As a
result, the IRS currently does not have a uniform procedure to continuously identify all projects
needing portal support. An interim procedure would assist portal office personnel in recognizing
future needs and performing more precise portal capacity studies.
The Chief Technology Officer is re-evaluating the best approach for completing the information
technology modernization program. Until final decisions on modernization emphasis are made,
the enterprise portal business strategy may remain undecided.




2
 In December 2008, the IRS decided to discontinue the development of the My IRS Account project.
3
 The Modernization Vision and Strategy Program Is Achieving Desired Results, but Risks Remain (Reference
Number 2009-20-008, dated October 31, 2008).
                                                                                                           2
                 Initial Efforts to Develop a New Web-based Portal Environment
                                        Were Not Successful




Recommendation
The Chief Technology Officer should work with the Commissioner, Wage and Investment
Division, to develop a process to ensure that new projects seeking approval and funding during
the information technology governance process, and which are not part of the Modernization
Vision and Strategy process, are properly identified and their portal needs are considered. The
new process should be similar to existing procedures to ensure that a uniform analysis is
conducted for projects that are not part of the Modernization Vision and Strategy process.

Response
IRS management agreed with our recommendation. The Chief Technology Officer and the
Wage and Investment Division organization will partner together to improve coordination
intended to ensure that all major new projects needing portal services will receive analysis that is
similar to existing procedures. To effect this change, the Enterprise Services-led Modernization
Vision and Strategy team and the Wage and Investment Division Electronic Tax Administration
function will collaborate in a timely manner to identify priority projects and decision data.
Existing portfolio identification and management procedures will be tailored to optimize the
impact from a time and resources perspective and to ensure the capture of key elements
necessary for informed decision making. The steps selected from the current procedures will
meet the specific needs of the project and an explanation of why specific actions are tailored will
be recorded for each item. The end result will be a process that identifies investment
opportunities which are channeled through an engineering and estimation process to ensure that
any portal needs are identified, considered, and properly addressed. Management’s complete
response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                                   3
                      Initial Efforts to Develop a New Web-based Portal Environment
                                             Were Not Successful




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Progress Was Made on Developing a New Web-based Portal
          Environment..................................................................................................Page 4
          Scope and Budget Issues Delayed Development of the New
          Web-based Portal Environment ....................................................................Page 4
          Procedures Are Not in Place to Continuously Identify New
          Projects Needing Portal Support...................................................................Page 6
                    Recommendation 1:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Glossary of Terms................................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 14
       Initial Efforts to Develop a New Web-based Portal Environment
                              Were Not Successful




                      Abbreviations

ETA             Electronic Tax Administration
IRS             Internal Revenue Service
MITS            Modernization and Information Technology Services
MV&S            Modernization Vision and Strategy
NPI             New Portal Implementation
PPMO            Portal Program Management Office
                       Initial Efforts to Develop a New Web-based Portal Environment
                                              Were Not Successful




                                                 Background

 The use of the Internet is critically important to the
 Internal Revenue Service’s (IRS) tax administration                   Web-based portals make
 mission of delivering top-quality service to all taxpayers.        significant contributions to the
 The IRS uses Internet portals1 as the means to enable            IRS tax administration mission by
 taxpayers and tax practitioners to submit and retrieve            providing taxpayers with access
 tax-related and general IRS information and electronically        to tax-related resources such as
                                                                            electronic filing.
 file tax returns. As a result, the portal environment is a
 critical interface between the public and the IRS. Each
 year, millions of taxpayers and practitioners visit IRS web
 sites for information needed to file tax returns and process tax payments and refunds. For
 example, taxpayers are able to electronically check the status of their refunds at the “Where’s My
 Refund?” resource. In addition, a significant number of IRS personnel depend on these web sites
 to effectively and efficiently perform their job duties. Figure 1 provides examples of portal uses
 by taxpayers and IRS employees.
             Figure 1: Examples of Current Portal Activities and Usage Statistics

      Portal Name         Portal Users        Activities Performed by   Number of       Information Technology
                                                        Users            Accesses              Projects
                                                                         in 2008*
 Public User Portal    • Taxpayers        • Research tax regulations    343,654,118   • Withholding calculator
                                          • File tax forms                            • Office locator
                                          • Check status of refunds                   • Online Publication 78
                                          • Download IRS forms
                                          • Download IRS
                                            publications
                                          • Locate IRS offices
 Registered User       • Business         • Request tax transcripts     12,300,839    • Modernized e-File
 Portal                  owners           • File tax forms                            • e-Services
                       • Tax                                                          • Integrated Financial System
                         professionals
 Employee User         • IRS employees    • Request tax transcripts      2,879,135    • Modernized e-File
 Portal                                   • File tax forms                            • e-Services
                                                                                      • Integrated Financial System

Source: IRS Portal Program Management Office and Electronic Tax Administration function.
* = Number of times the portal was accessed in Calendar Year 2008 through December 6, 2008.



 1
     See Appendix IV for a glossary of terms.
                                                                                                           Page 1
                   Initial Efforts to Develop a New Web-based Portal Environment
                                          Were Not Successful



The current portal structure consists of three distinct portal environments2 to accommodate a
diverse user group that includes individual taxpayers, business partners, and government personnel.
The IRS paid contractors an average of $25 million3 annually from Fiscal Year 2001 through
Fiscal Year 2008 to operate and maintain the current portal environment. However, the IRS
recognized a need for a new portal environment due to several constraints, including:
1) the technical design limitations of the existing portal would not meet Fiscal Year 2008 user
needs and increased business demand from the Modernization Vision and Strategy (MV&S)
process; 2) the IRS projected significant increases in the use of the Employee User Portal
(1300 percent increase) and the Registered User Portal (400 percent increase) by Fiscal Year
2008; 3) the high percentage of portal hardware components (90 percent) and third-party
software products (70 percent) that had exceeded their useful lifespan; and 4) the contractors
owned and operated the current portal system and equipment.
To address these concerns, the IRS implemented the New Portal Implementation (NPI) Project to
establish an enterprise portal as a single point of access to information, services, and applications
for all internal and external users. The IRS planned to complete the enterprise portal by
November 2008. The new portal system and equipment would be owned and operated by the
IRS.
The responsibility for developing and implementing the new portal environment is shared by the
Modernization and Information Technology Services (MITS) organization Portal Program
Management Office (PPMO) and the Wage and Investment Division Electronic Tax
Administration (ETA) function.
    •   The PPMO provides program direction, oversight, and central control of the New Portal
        Implementation and Transition Program. It is responsible for providing a portal
        environment for new and existing portal applications for public users, registered users,
        and IRS employees. This new environment will update the current computer equipment
        to handle the capacity and performance of existing and future portal applications, and
        introduce the next generation of portal technology to assist the IRS in achieving its
        strategic goals.
    •   The ETA function provides leadership, guidance, and integration with IRS business
        divisions to effectively manage, coordinate, and deliver portal business strategies; new
        business capabilities; and requirements management, policies, and content management.
        It serves as the integration point between the IRS business divisions and MITS
        organization functions.




2
 The Employee User Portal, the Registered User Portal, and the Public User Portal.
3
 The costs included in this report were obtained from the Modernization and Information Technology Services
organization Portal Program Management Office. We did not independently validate the reliability of these costs.
                                                                                                          Page 2
                Initial Efforts to Develop a New Web-based Portal Environment
                                       Were Not Successful



This review was performed at the MITS organization facilities in New Carrollton, Maryland,
during the period July through November 2008. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. However, we did not perform a full-scope audit of the new portal development.
During our survey work, we determined that the IRS had cancelled the NPI Project and withdrew
the portal business case from the Department of the Treasury. As a result, we did not conduct
any additional audit fieldwork. We communicated the interim results of our review and
suggestions for improvement to MITS organization officials on November 18, 2008. While we
were performing our review, the IRS began developing a new portal business strategy. As a
result, additional changes and progress might have occurred since the conclusion of our analyses.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                          Page 3
                Initial Efforts to Develop a New Web-based Portal Environment
                                       Were Not Successful




                               Results of Review

Progress Was Made on Developing a New Web-based Portal
Environment
In Fiscal Year 2006, the IRS implemented the NPI Project to develop a new portal environment
by November 2008. In August 2006, the PPMO was established to manage, consolidate,
coordinate, and deliver the new portal environment.
To ensure adequate controls over system development projects, the IRS requires that provisions
of the Enterprise Life Cycle be followed. We determined that the Enterprise Life Cycle was
generally followed. For example, a portal business case was developed, regular oversight of the
NPI Project’s progress was performed during monthly meetings of the Infrastructure Executive
Steering Committee, and the Project’s scope and activities were detailed in a Project
Management Plan and a Work Breakdown Structure.
In addition, the Project Management Plan identified IRS projects that were dependent on
development of the new portal environment. When the IRS Chief Information Officer decided to
cancel the NPI Project before completion of the new portal environment, an impact assessment
was performed to determine how projects that were planning to operate on the new portal would
be affected. The assessment showed that 7 of 58 projects would be affected if the new portal
environment was not available by the planned November 2008 date. Executives in the MITS
organization decided to enhance the capacity of the current portals to support the existing and
future projects.

Scope and Budget Issues Delayed Development of the New
Web-based Portal Environment
In June 2008, after nearly 2 years of work and expending $19.5 million, the IRS Chief
Information Officer decided to cancel the NPI Project before
developing and implementing the new portal environment. The         Questions about the portal
NPI Project was canceled primarily for two reasons.                 business strategy and MITS
                                                                       organization funding
   •   The Project did not have a viable, agreed-upon                   challenges led to
       enterprise-level portal business strategy. Although a         cancellation of the new
       business case was developed, ETA function officials               portal project.
       questioned whether Project objectives would result in a
       new portal environment that represented the industry
       best practices and considered advances in portal technology. The Director, ETA,

                                                                                         Page 4
                     Initial Efforts to Develop a New Web-based Portal Environment
                                            Were Not Successful



           informed us that during his research he discovered industry businesses mostly outsourced
           portals to independent contractors. This was inconsistent with the NPI Project plan that
           the IRS would have ownership of its portal system. The Director, ETA, also stated that
           the portal business case did not reflect adequate consideration of advances in portal
           technology.
      •    The MITS organization was experiencing budget challenges and the Chief Information
           Officer decided not to fund the Project any longer because it would require a significant
           expenditure on equipment. As a result, the Project was cancelled and the IRS withdrew
           the business case from the Department of the Treasury.
All modernization projects must follow the Enterprise Life Cycle, which requires that an
enterprise strategy be developed for information technology projects and that the strategy
consider the business needs and requirements of all stakeholders. An enterprise strategy should
be developed in project planning activities that are performed during the vision and strategy
phase. During this initial phase, the information technology proposal is developed and IRS
executives consider whether to approve the project and authorize funding. The enterprise
strategy should be fully explained in the business case developed for the information technology
project.
After cancelling the NPI Project, the IRS hired a contractor at a cost of $2 million to assist in
development of an enterprise portal business strategy. However, the IRS also had to expend
additional funds to add capacity to the current portals to support ongoing information technology
projects that were planned to be implemented on the new portal environment. At the time of our
review, to accommodate the My IRS Account and Modernized e-File projects, the IRS
confirmed that it had to spend $9.7 million to upgrade the capacity on the current portals. The
My IRS Account is a web application that will provide individual taxpayers with direct online
access to their Federal tax return and account information, 24 hours a day, 365 days a year, much
like an online banking operation.4 The Modernized e-File project provides electronic filing and
payment options for businesses that include corporations, exempt organizations, partnerships,
and filers of excise tax returns. As of August 31, 2008, the Modernized e-File project had
accepted over 2.9 million returns, which was a 55 percent increase over the number of returns
accepted during the same time in the previous year.
While we understand the IRS decision to upgrade the existing portals to support the My IRS
Account and Modernized e-File projects, purchasing new equipment for portal capacity upgrades
prior to development of an enterprise portal business strategy increases the risk that new
equipment may not integrate with the new portal environment once it is developed. Also, the
new Chief Technology Officer, appointed in November 2008, is re-evaluating the best approach
for completing the information technology modernization program. Until final decisions on
modernization emphasis are made, the enterprise portal business strategy may remain undecided.

4
    In December 2008, the IRS decided to discontinue the development of the My IRS Account project.
                                                                                                      Page 5
                 Initial Efforts to Develop a New Web-based Portal Environment
                                        Were Not Successful



Because the Chief Technology Officer is reconsidering the information technology
modernization focus and a contractor is assisting in development of the portal business strategy,
we are not making any recommendations at this time regarding development of the portal
strategy. Also, the Enterprise Life Cycle provides procedures and controls to ensure that all
stakeholder requirements and industry best practices are considered during system development
activities.

Procedures Are Not in Place to Continuously Identify New Projects
Needing Portal Support
The NPI Project’s Project Management Plan identified existing projects which are dependent on
the new portal environment. The IRS also uses various methods to identify existing projects that
require portal support, such as the MV&S process and Unified Work Requests; however, there is
no formal process to continuously identify and evaluate future
planned projects that may require portal support. As a result, the        Portal capacity,
IRS currently does not have a uniform procedure to continuously         performance, and
identify all projects needing portal support.                        functionality needs could
                                                                         be addressed earlier by
The Director, PPMO, relies on the MV&S process to identify                implementing a process
portal-dependent projects. However, this process is not yet                designed to identify all
mature enough to include all information technology projects, and          projects needing portal
                                                                                  support.
the requirement that all projects needing portal support go through
the MV&S process is not documented in a procedure. Although
the PPMO staff believes that they have a good idea of which projects need portal support, until a
process and procedure are developed to continuously identify new portal-dependent projects,
there is a risk that portal capacity may not be sufficient to handle dependent projects, and
performance and functionality may not meet user needs.
While the MV&S process matures, an interim procedure is needed to identify all projects
needing portal support, especially new projects that may not meet the requirements for the
MV&S process. This procedure would assist the PPMO in anticipating future needs, performing
more precise portal capacity studies, and ensuring that the portal is consistently available to meet
the performance and functionality needs of users.

Recommendation
Recommendation 1: The Chief Technology Officer should work with the Commissioner,
Wage and Investment Division, to develop a process to ensure that new projects seeking
approval and funding during the information technology governance process, and which are not
part of the MV&S process, are properly identified and their portal needs are considered. The
new process should be similar to existing procedures to ensure that a uniform analysis is
conducted for projects that are not part of the MV&S process.

                                                                                             Page 6
         Initial Efforts to Develop a New Web-based Portal Environment
                                Were Not Successful



Management’s Response: IRS management agreed with our recommendation. The
Chief Technology Officer and the Wage and Investment Division organization will
partner together to improve coordination intended to ensure that all major new projects
needing portal services will receive analysis that is similar to existing procedures. To
effect this change, the Enterprise Services-led MV&S team and the Wage and Investment
Division ETA function will collaborate in a timely manner to identify priority projects
and decision data. Existing portfolio identification and management procedures will be
tailored to optimize the impact from a time and resources perspective and to ensure the
capture of key elements necessary for informed decision making. The steps selected
from the current procedures will meet the specific needs of the project and an explanation
of why specific actions are tailored will be recorded for each item. The end result will be
a process that identifies investment opportunities which are channeled through an
engineering and estimation process to ensure that any portal needs are identified,
considered, and properly addressed.




                                                                                    Page 7
                      Initial Efforts to Develop a New Web-based Portal Environment
                                             Were Not Successful



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of the audit was to review IRS management and development of a new
web-based portal1 environment. During our survey work, we determined that the IRS had
cancelled the NPI Project and withdrew the related business case from the Department of the
Treasury. As a result, we determined that our review did not warrant additional audit fieldwork
and sufficient evidence was obtained during our survey to support the findings and conclusions
in this report.
To accomplish our audit objective, we:
I.         Determined whether the IRS had developed an overall enterprise strategy for
           implementation of the new portal environment.
           A. Interviewed the Director, PPMO, and other officials in the ETA function to
              determine:
               1. Their roles and responsibilities related to the development and implementation of
                  the new portal environment.
               2. The timeline for the initiation of the new portal environment, including
                  identifying the first year the IRS began updating the portal environment.
               3. Whether a portal charter, business strategy, and business case were developed.
               4. Whether an overall plan was developed to guide the new portal strategy and
                  enhancements across the IRS enterprise (including transitioning existing
                  information systems to the new portal environment).
               5. Whether the portal infrastructure and technology components (i.e., hardware,
                  software, etc.) were adequately identified to ensure that users have sufficient and
                  secure access to IRS systems in the new portal environment.
               6. How security (such as access/authentication controls) and capacity will be
                  addressed in the new portal environment.
               7. Whether the completed portal had any major security and capacity incidents, and
                  how those issues were documented and resolved.




1
    See Appendix IV for a glossary of terms.
                                                                                               Page 8
               Initial Efforts to Develop a New Web-based Portal Environment
                                      Were Not Successful



         8. How the PPMO ensured that the new portal environment had adequate capacity to
            handle the increase in volume of user transactions, the number of new
            applications/projects transitioning to the new portal, and the amount of
            information available to users.
         9. How the PPMO identified and ensured that all information technology projects
            needing portal engineering support were identified.
         10. Whether the PPMO had developed an inventory of IRS information technology
             projects that require or will need portal engineering support.
      B. Reviewed available documentation to support the development of an overall
         enterprise strategy for implementation of the new portal environment, including:
         1. The portal business strategy.
         2. The PPMO charter.
         3. The ETA function portal charter.
         4. The portal business case.
         5. The current MV&S Plan to determine whether the portal strategy is mentioned in
            the Plan.
         6. Documents showing the process of how the PPMO identifies business unit
            information technology projects needing portal engineering support.
II.   Determined whether the new portal project followed the Enterprise Life Cycle guidelines.
      A. Interviewed the Director, PPMO, to determine whether the NPI Project:
         1. Followed Enterprise Life Cycle guidelines.
         2. Had documented development and/or management results.
         3. Was or was not completed (i.e., not deployed into IRS operations) and, if it was
            not completed, whether the reasons were documented as to why it was
            discontinued (including the total amount expended on the project).
         4. Results were used to support the new portal environment.
      B. Reviewed documentation to determine whether the NPI Project adhered to the
         Enterprise Life Cycle guidelines.
      C. Obtained the total costs that were estimated and expended for the PPMO current
         portal projects.



                                                                                        Page 9
                Initial Efforts to Develop a New Web-based Portal Environment
                                       Were Not Successful



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott A. Macfarlane, Director
Kimberly R. Parmley, Audit Manager
Wallace C. Sims, Lead Auditor
Louis V. Zullo, Senior Auditor
Melinda H. Dowdy, Auditor
Charlene L. Elliston, Auditor




                                                                                       Page 10
               Initial Efforts to Develop a New Web-based Portal Environment
                                      Were Not Successful



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment
Division SE:W:ETARC
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Director, Program Oversight OS:CIO:SM:PO




                                                                                      Page 11
                Initial Efforts to Develop a New Web-based Portal Environment
                                       Were Not Successful



                                                                             Appendix IV

                               Glossary of Terms

e-Services                          A project that provides a set of web-based business
                                    products as incentives to third parties to increase
                                    electronic filing, in addition to providing electronic
                                    customer account management capabilities to all
                                    businesses, individuals, and other customers.
Enterprise Life Cycle               A structured business systems development method that
                                    requires the preparation of specific work products
                                    during different phases of the development process.
Executive Steering Committee        A committee that oversees investments, including
                                    validating major investment business requirements and
                                    ensuring that enabling technologies are defined,
                                    developed, and implemented.
Integrated Financial System         An administrative accounting system used by the IRS
                                    intended to address administrative financial
                                    management weaknesses. The first release of the
                                    Integrated Financial System will include Accounts
                                    Payable, Accounts Receivable, General Ledger, Budget
                                    Execution, Cost Management, and Financial Reporting
                                    activities. Future releases will address all
                                    administrative financial management weaknesses.
Modernization Vision and Strategy   A 5-year plan for the governance and planning
                                    processes for IRS information technology decisions.
Modernized e-File                   A project to develop the modernized, web-based
                                    platform for filing approximately 330 IRS forms
                                    electronically, beginning with the U.S. Corporation
                                    Income Tax Return (Form 1120), U.S. Income Tax
                                    Return for an S Corporation (Form 1120S), and Return
                                    of Organization Exempt From Income Tax (Form 990).
                                    The project serves to streamline filing processes and
                                    reduce the costs associated with a paper-based process.




                                                                                       Page 12
                 Initial Efforts to Develop a New Web-based Portal Environment
                                        Were Not Successful




My IRS Account                     A web-based application that will provide taxpayers
                                   direct online access to their Federal tax return and
                                   account information.
Office Locator                     An online application that allows taxpayers to search
                                   for the location and hours of local IRS Taxpayer
                                   Assistance Centers.
Online Publication 78              Cumulative List of Organizations described in
                                   Section 170(c) of the Internal Revenue Code of 1986; a
                                   list of organizations eligible to receive tax-deductible
                                   charitable contributions.
Portal                             A point of entry to a network system that includes a
                                   search engine or a collection of links to other sites
                                   arranged especially by topic. It provides the
                                   infrastructure that allows users (including IRS
                                   employees and taxpayers) to have web-based access to
                                   IRS information.
Project Management Plan            A plan that defines program projects, the scope of work
                                   to be performed for each project, and the planned
                                   methodology and deliverables for the project.
Unified Work Request               A process that provides a common framework to
                                   document, control, monitor, and track requests to the
                                   MITS organization for changes to IRS computer
                                   systems and for support.
Where’s My Refund?                 An application that provides tax refund status
                                   information via the Internet to U.S. Individual Income
                                   Tax Return (Form 1040) series filers who are eligible to
                                   receive a refund.
Withholding Calculator             An application to help employees ensure that they do
                                   not have too much or too little income tax withheld
                                   from their pay. It is not a replacement for Employee’s
                                   Withholding Allowance Certificate (Form W-4), but is
                                   more accurate and easier to use than the worksheets that
                                   accompany Form W-4.
Work Breakdown Structure           A deliverable-oriented grouping of project elements that
                                   organizes and defines the total scope of a project.



                                                                                    Page 13
    Initial Efforts to Develop a New Web-based Portal Environment
                           Were Not Successful



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 14
Initial Efforts to Develop a New Web-based Portal Environment
                       Were Not Successful




                                                        Page 15
